Report No. D-2009-082        May 6, 2009




           SeaPort Enhanced Program
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
ConOps                        Concept of Operations
COR                           Contracting Officer’s Representative
DASN (A&LM)                   Deputy Assistant Secretary of the Navy (Acquisition and
                                 Logistics Management)
DFARS                         Defense Federal Acquisition Regulation Supplement
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
IDIQ                          Indefinite-Delivery, Indefinite-Quantity
NAVAIR                        Naval Air Systems Command
NAVFAC                        Naval Facilities Engineering Command
NAVSEA                        Naval Sea Systems Command
NAVSUP                        Naval Supply Systems Command
PPMAP                         Procurement Performance Management Assessment
                                 Program
QASP                          Quality Assurance Surveillance Plan
SeaPort-e                     SeaPort Enhanced
SPAWAR                        Space and Naval Warfare Systems Command
SYSCOM                        Systems Command
                                INSPECTOR GENERAL
                               DEPARTMENT OF DEFENSE
                                  400 ARMY NAVY DRIVE
                             ARLINGTON, VIRGINIA 22202-4704


                                                                                May 6, 2009

MEMORANDUM FOR DIRECTOR, DEFENSE PROCUREMENT AND
                  ACQUISITION POLICY AND STRATEGIC SOURCING
              NAVAL INSPECTOR GENERAL

SUBJECT: SeaPort Enhanced Program (Report No. D-2009-082)


We are providing this report for review and comment. We considered comments on a
draft ofthis report from the Director of Defense Procurement and Acquisition Policy and
Strategic Sourcing, the Naval Sea Systems Command Director of Contracts, and the
Chief of StaffIPolicy for the Deputy Assistant Secretary of the Navy (Acquisition and
Logistics Management) in preparing the final report.

DoD Directive 7650.3 requires that all recommendations be resolved promptly. The
Director of Defense Procurement and Acquisition Policy and Strategic Sourcing agreed
with our recommendation, and his comments were responsive. The Department of the
Navy's comments resulted in draft Recommendations A.2.a., A.2.b., B.1.a., B.1.b.,
B.1.c., B.1.d., and B.1.e. being revised; combined into A.2.a., A.2.b., B.1., B.2., and B.3.;
and redirected to the Deputy Assistant Secretary ofthe Navy (Acquisition and Logistics
Management). Therefore, we request additional comments from the Deputy Assistant
Secretary by June 8, 2009. See the recommendations table on page ii.

Please provide comments that conform to the requirements of DoD Directive 7650.3. If
possible, send your comments in electronic format (Adobe Acrobat file only) to
audacm@dodig.mil. Copies of your comments must have the actual signature of the
authorizing official for your organization. We are unable to accept the / Signed / symbol
in place 'ofthe actual signature. If you send classified comments electronically, you must
send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at (703)
604-9201 (DSN 664-9201).



                                                  ,           ~~~
                                              Richard B. Jolliffe
                                              Assistant Inspector General
                                              Acquisition and Contract Management
Report No. D-2009-082 (Project No. D2008-D000AS-0085.000)                    May 6, 2009



              Results in Brief: SeaPort Enhanced Program

                                                   We also found that 118 task orders valued at
What We Did                                        $1.4 billion did not meet quality assurance
The overall audit objective was to review the      requirements. The SeaPort-e program manager
award and administration of the SeaPort            did not ensure task orders were written to be
Enhanced (SeaPort-e) program. We determined        performance based, had quality assurance
whether SeaPort-e contracts and task orders        surveillance plans (QASPs), or had contracting
were consistent with Federal and DoD               officer’s representatives assigned. We estimate
acquisition and contracting policies.              that, of 1,106 total task orders, 89 percent did not
                                                   meet quality assurance requirements.
What We Found
The SeaPort-e internal controls were not           What We Recommend
adequate. We identified internal control           The Director, Defense Procurement and
weaknesses in contract award and                   Acquisition Policy should request that the
administration. Of the 133 task orders valued at   Defense Acquisition Regulation Council
$2.1 billion that we reviewed, 39 valued at        determine the need for changes to the FAR
$469.3 million were not awarded based on           regarding small business set-asides.
adequate competition. The program office did
not ensure that task orders were open for          We redirected all Recommendations except A.1.
bidding for the length of time specified in the    to the Deputy Assistant Secretary of the Navy
Concept of Operations. The SeaPort-e program       (Acquisition and Logistics Management) to verify
office also deviated from Federal Acquisition      that contracting officers using SeaPort-e are
Regulation (FAR) criteria by not performing        following the FAR, implement the Concept of
adequate market research. We estimate that, of     Operations as requirements and then verify
the 1,106 task orders from which we drew our       correct use, ensure contracting officers receive
sample of 133, 29.3 percent were not awarded       training in and issue performance-based task
based on adequate competition.                     orders that include a QASP, restrict the scope of
                                                   each task order to known requirements, and verify
In October 2008 the Government Accountability      compliance with DFAR 201.602.
Office issued a legal decision counter to the
conclusion in our draft report that small          Management Comments and
business set-asides are inappropriate in a
multiple-award contract. As a result, we           Our Responses
concluded there is a conflict in the FAR           The Director of Defense Procurement and
concerning small business set-asides.              Acquisition Policy agreed and his comments were
Regardless, competition was still limited in       responsive. The comments of the Department of
SeaPort-e because contracting officers did not     the Navy led us to redirect five recommendations
conduct adequate market research to ensure         to the Deputy Assistant Secretary of the Navy
there were two or more small businesses            (Acquisition and Logistics Management), from
capable of completing the requirement for          whom we request additional comments by June 8,
set-aside task orders.                             2009. See the recommendations table on page ii.


                                                   i
Report No. D-2009-082 (Project No. D2008-D000AS-0085.000)                May 6, 2009

Recommendations Table
Management                      Recommendations               No Additional Comments
                                Requiring Comment             Required
Director, Defense Procurement                                 A.1.
and Acquisition Policy and
Strategic Sourcing
Deputy Assistant Secretary of   A.2.a., A.2.b., B.1., B.2.,
the Navy (Acquisition and       B.3.
Logistics Management)

Please provide comments by June 8, 2009.




                                             ii
Table of Contents

Results in Brief                                                              i

Introduction                                                                  1

       Objectives                                                            1
       Background                                                            1
       Review of Internal Controls                                           2
       Statistical Sample                                                    2
       Results                                                               3

Finding A. Competition for Task Orders                                        4

       Management Comments on the Finding and Our Response                   8
       Recommendations, Management Comments, and Our Response                9

Finding B. Quality Assurance Requirements                                    14

       Management Comments on the Finding and Our Response                   18
       Recommendations, Management Comments, and Our Response                19

Appendices

       A. Scope and Methodology                                              23
              Prior Coverage                                                 25
       B. Other Matters of Interest                                          27
              Management Comments on the Appendix and Our Response           29
       C. Results of Our Review of 133 Task Orders                           31
              Management Comments on the Appendix and Our Response           37
       D. Estimates Based on the Statistical Sample                          38

Management Comments

       Under Secretary of Defense (Acquisition, Technology, and Logistics)   39
       Department of the Navy                                                40
Introduction
Objectives
Our overall audit objective was to review the award and administration of the SeaPort
Enhanced (SeaPort-e) program. Specifically, we determined whether SeaPort-e contracts
and task orders were consistent with Federal and DoD acquisition and contracting
policies. Refer to Appendix A for a discussion of scope and methodology and prior
coverage.

Background
SeaPort-e consists of a series of indefinite-delivery, indefinite-quantity (IDIQ) contracts
and a Web-based system to facilitate proposing, awarding, and administering task orders.

SeaPort-e Contracts
As of December 18, 2007, 1,285 task orders totaling $16 billion had been awarded under
1,279 IDIQ contracts that have a ceiling of $47.8 billion. The contract scope includes 22
support areas, such as research and development; engineering, system engineering, and
process engineering; and program support. The first task order was issued on May 28,
2004. The users of the SeaPort-e contract are the Navy Systems Commands (SYSCOMs)
(Naval Sea Systems Command [NAVSEA], Naval Air Systems Command [NAVAIR],
Naval Supply Systems Command [NAVSUP], Space and Naval Warfare Systems
Command [SPAWAR]); the U.S. Marine Corps; Military Sealift Command; Strategic
Systems Programs; Naval Facilities Engineering Command (NAVFAC); the Office of
Naval Research; and the Defense Threat Reduction Agency.

SeaPort-e contracts have a base period of 5 years with the possibility of 10 additional
award years. A memorandum of agreement signed by the four Navy Systems Commands
states that all four are required to use SeaPort-e as their acquisition contract for
engineering, financial, and program management services. Use of SeaPort-e is not
mandatory if:

      there is an existing contract for a support service (in which case the contract is
       permitted to be used until it expires),
      the required service is not within the scope of SeaPort-e, or
      another option would be in the best interest of the Government.

The original participants in SeaPort-e, NAVAIR, NAVSUP, and SPAWAR, are charged
the same fee, and NAVSEA contributes the remainder of the amount needed to cover the
program’s recurring costs. Since 2007, NAVSEA has allowed other DoD components to
use SeaPort-e. NAVSEA serves as the SeaPort-e program office and created the
SeaPort-e Concept of Operations (ConOps) to make sure there was consistency
throughout the SeaPort-e ordering offices. SeaPort-e program is centrally managed by
NAVSEA but has decentralized the ordering structure so that DoD component’s
contracting officers award the task orders.


                                             1
For SeaPort-e, the program office decided to divide the United States into seven
geographic zones in which each task order could be competed. According to the
SeaPort-e program office, it created the zones to improve competition within market
areas.

SeaPort-e Portal
The SeaPort-e portal, located at http://www.seaport.navy.mil/, is a tool used by the
Government and contractors to manage the solicitations and task orders that are issued
and to track and bid on solicitations, respectively. SeaPort-e has a list of approved
contractors and uses a rolling admissions process to expand the contractor base. The first
rolling admissions were in 2005. As of December 18, 2007, there were 1,279 contract
holders, including the 152 admitted at the inception of SeaPort-e, another 489 admitted in
2005, 248 contractors admitted in 2006, and 390 in 2007. The Navy needs to evaluate
whether the rolling admission of so many contractors meets the Federal Acquisition
Regulation (FAR) 16.504(c)(1)(ii)(A) to avoid a situation in which awardees specialize
exclusively in one or a few areas of the statement of work. In October 2004, all of the
SYSCOM commanders signed a memorandum of agreement in which they committed to
provide resources as required to execute the SeaPort-e program. According to the
SeaPort-e program manager, NAVAIR, NAVSUP, and SPAWAR are charged $500,000
per year, and NAVSEA contributes $800,000 per year to cover the $2.3 million in
recurring costs of SeaPort-e. The minimum award for each contractor that was awarded a
contract was $10,000 for the first 152 awardees; since 2005 the amount has been $2,501
for new contractors. See Appendix B for more details about the funding of SeaPort-e and
the guaranteed minimum awards not made.

Review of Internal Controls
We determined that material internal control weaknesses in the SeaPort-e program office
existed as defined by DoD Instruction 5010.40, “Managers’ Internal Control (MIC)
Program Procedures,” January 4, 2006. The SeaPort-e program office did not have
internal controls for contract administration and management procedures to determine
whether task orders should be set aside for small businesses or whether contracting
officers should follow SeaPort-e guidance on competition. Implementing
Recommendations A.1. and A.2. will improve the internal controls for competition. In
addition, the SeaPort-e program office did not have adequate procedures and controls to
ensure task orders were performance based, had quality assurance surveillance plans
(QASPs), and had designated contracting officer’s representatives (CORs).
Implementing Recommendations B.1., B.2., and B.3. will improve the program office’s
compliance with Federal and DoD policies for quality assurance. We will provide a copy
of this report to the senior official responsible for internal controls in the Navy.

Statistical Sample
We conducted the audit using a statistical sample of SeaPort-e task orders. The SeaPort-e
program office provided the audit team a list of 1,285 task orders awarded as of
December 18, 2007. Of the 1,285 task orders, we limited our population to 1,106 valued


                                            2
at approximately $14 billion based on location. We selected the offices with the highest
concentration of task orders based on the potential dollar value of those task orders and
the number of task orders awarded. The DoD Office of Inspector General Quantitative
Methods and Analysis Division selected a statistical sample of 133 task orders valued at
$2.1 billion for our review. See Appendix A for a list of the ordering offices we visited.

Results
To accomplish our objectives, we reviewed competition, quality assurance, information
assurance, task order administration, and task order fees. Finding A discusses limits to
competition, and finding B discusses the need for more quality assurance for
performance-based task orders. We did not identify systemic issues for information
assurance, task order administration, or task order fees. Appendix C summarizes results
of our review of task orders, and Appendix D explains the estimates based on those
results.




                                             3
Finding A. Competition for Task Orders
Of the 133 task orders valued at $2.1 billion that we reviewed, 391 valued at
$469.3 million were not awarded based on adequate competition. The SeaPort-e program
manager restricted competition by not enforcing the ConOps regarding the open period
for solicitations and deviated from the FAR by not ensuring contracting officers
performed adequate market research on small business set-aside task order contracts. As
a result, Navy officials may not always receive the best value for the SeaPort-e customer.
Additionally, we identified a conflict in the FAR related to setting aside task orders that
has resulted in inconsistent application of the regulation. We estimate that the SeaPort-e
program manager and contracting officers restricted competition on 29.3 percent (324) of
the 1,106 SeaPort-e task orders as discussed in Appendix D.

Open Period for Solicitations
The SeaPort-e ConOps provides various lengths of time a task order solicitation should
be open based on the task order’s dollar value. The ConOps states that proposal
submission guidelines were established in order to promote competition. Specifically,
the ConOps states that a task order with a value between $1 million and $50 million
should be open for 11 to 24 days. If the solicitation is not open for a sufficient amount of
time, as defined by the ConOps, contractors may not have adequate time to develop a
competitive bid. For example, we found a $2.3 million task order solicitation open for
6 days. The solicitation received only one bid, which was from the incumbent contractor.
Another task order, valued at $56 million, was open for bidding for only 19 days, even
though the ConOps stipulates that a task order with a value greater than $50 million
should remain open for at least 25 days. Overall, 30 task orders out of the 133 in our
sample, valued at $458 million, did not meet the ConOps guidance on how long to leave
the solicitation open. Therefore, the SeaPort-e program manager must enforce the
ConOps through quarterly reviews of task orders and establish consequences for
contracting officers who do not follow the ConOps, to ensure that contractors have a fair
opportunity to bid on task orders.

Adequate Market Research for Set-Asides
Although the use of small business set-asides is allowable in IDIQ contracts according to
the Government Accountability Office (GAO) Decision B-400403,2 SeaPort-e
contracting officers did not conduct adequate market research to ensure there were two or
more small businesses capable of completing the requirement. FAR 19.502-2(b) states
“the contracting officer shall set aside any acquisition over $100,000 when there is a



1
  The 39 task orders without adequate competition are a combination of 30 task orders that did not meet
ConOps requirements on how long to leave a solicitation open and 14 task orders that did not meet FAR
market research requirements. To avoid double-counting, we removed five task orders that did not meet
either ConOps or FAR requirements, resulting in a total of 39.
2
  GAO Decision details appear on page 6.


                                                    4
reasonable expectation that offers will be obtained from at least two responsible small
business concerns.”

We evaluated SeaPort-e set-aside task orders following the ConOps provided by the
program office and the basic SeaPort-e contract, which allows SeaPort-e users to set aside
task orders for small business concerns. Of the 133 task orders, 55 valued at
$457.7 million were set aside for small businesses. Of the 55 small business set-asides,
14 valued at $95 million did not provide adequate evidence of market research for being
set aside, and each received only 1 small business bid. For example, three task orders at
two locations were set aside for small business concerns because the prior task order was
also set aside and the incumbent was a small business. At another location, the Deputy
for Small Business stated that all task orders are set aside for small business concerns
unless the contracting officer justifies not setting the task order aside. Of the 11 task
orders set aside for small business concerns at this location, 5 had only 1 bid and
provided inadequate justification for setting the task order aside. Without having a
reasonable expectation that two or more small businesses are able to complete a task
order, SeaPort-e users are limiting competition.

The SeaPort-e solicitation states that, following the evaluation of offers, the award of a
task order goes to the contractor whose proposal is most advantageous to the
Government. However, if the number of possible bidders has been limited by an
improper small business set-aside, the SeaPort-e program office cannot guarantee that the
DoD has received the best value proposal. Therefore, the SeaPort-e program manager
should ensure that task orders are being set aside for small businesses in accordance with
FAR 19.502-2(b), “Total Small Business Set-Asides.”

Small Business Set-Asides Under Multiple-Award
Indefinite-Delivery, Indefinite-Quantity Contracts
The Federal Acquisition Streamlining Act of 1994, dated January 25, 1994, amends
section 2304 of title 10, United States Code, to state that the head of an agency shall
obtain full and open competition through the use of competitive procedures in accordance
with the requirements of the FAR. We determined that the SeaPort-e program manager
failed to comply with FAR 16.505, “Ordering” by allowing small business set-asides on
task orders issued through the SeaPort-e portal. FAR 16.505(b) requires the contracting
officer to provide each contractor a fair opportunity to be considered for each order
exceeding $3,000 issued under multiple-award IDIQ contracts. The four exceptions to
the fair opportunity requirement are the following.
     The agency need for the supplies or services is so urgent that providing fair
         opportunity would result in unacceptable delays.
     Only one awardee can provide the kind and quality of supplies or services
         required because the supplies or services ordered are unique or highly specialized.
     A sole-source order is in the interest of economy and efficiency because it is a
         logical follow-on to an order already issued under the contract, provided all
         awardees were given a fair opportunity to be considered for the task order.
     Placing an order is necessary to satisfy a minimum guarantee.



                                             5
FAR 16.505(b) states that the contracting officer must not use a method, such as an
allocation or designation of a preferred awardee, that would “not result in fair
consideration being given to all awardees prior to placing each order.”

According to officials in the SeaPort-e program office, they presented plans to use small
business set-asides to the Small Business Administration. The presentation, given in
October 2003, stated that the deputies for small business would assist contracting officers
in determining whether task orders should be set aside. According to the SeaPort-e
program manager, officials at the Small Business Administration supported setting aside
task orders under SeaPort-e. Furthermore, the SeaPort-e program manager stated that, by
signing a contract, the large contractors in SeaPort-e agreed to all contract terms,
including the language regarding small business set-asides. Each contract states that,
during the ordering process for a task order, the Government may set aside a task order
for small business concerns.

However, neither the SeaPort-e program manager nor the Small Business Administration
has authority to override FAR 16.505(b) or the statute which it is based on 10 USC 2304
c (b); special authority is required. Congress granted an exception to the fair opportunity
process of multiple-award IDIQ contracts in 2002 when it allowed the U.S. Agency for
International Development to set aside task orders for any category of small business.3

GAO Decision on Small Business Set-Asides
After the release of the Discussion Draft Report, the SeaPort-e program manager
provided the audit team with GAO Decision B-400403, regarding a protest by Delex
Systems, Incorporated, October 8, 2008. A portion of this legal decision differed from
our conclusions about the appropriateness of SeaPort-e task orders set aside for small
businesses. The GAO decision illustrates the conflicts in the use of FAR 16.505(b) and
FAR 19.502-2(b).

The GAO decision states that the set-aside provisions of FAR 19.502-2(b), “Total small
business set-asides,” apply to competition for task and delivery orders issued under
multiple-award contracts. FAR 19.502-2(b) states that the contracting officer should set
aside any acquisition over $100,000 for small business participation when there is a
reasonable expectation that offers will be obtained from at least two responsible small
business concerns at fair market prices. FAR 19.502-2(b) is also known as the “Rule of
Two.”

Delex Systems, a small business and contract holder on the second NAVAIR Training
Systems Contract, protested the NAVAIR decision to fully compete task orders under
this IDIQ contract. Delex claimed that there were two capable small business contract
holders able to do the work for these task orders. The Navy argued that
FAR 19.502-2(b) applies to initial contract awards, not to the issuance of task orders.
The Navy noted that FAR 6.203(c) requires contracting agencies to follow


3
    Public Law 107-115, Section 534, “Special Authorities,” January 10, 2002.


                                                      6
FAR Subpart 19.5, “Set-Asides for Small Business.” However, when an agency is
placing task and delivery orders under a multiple-award contract, FAR 16.505(b)(1)(ii)
advises that “the competition requirement in FAR 6 does not apply to the ordering
process.” Therefore, the Navy stated, NAVAIR was not required to comply with FAR
Subpart 19.5. GAO disagreed with this conclusion.

GAO determined that individually competed task orders under multiple-award contracts
should be viewed as acquisitions. GAO also stated that competition for a task order is the
most meaningful stage for a “Rule of Two” analysis because that is when holders of
multiple-award IDIQ contracts offer prices and solutions to meet specific agency needs.
As a result, GAO concluded that FAR 19.502-2(b) applies to task and delivery
competitions among multiple-award contract holders.

We spoke with members of the GAO General Counsel Office responsible for this
decision. They stated that the decision was final as of October 8, 2008. The Navy did
not contest the decision. The officials also stated that there is much confusion on this
topic, and legislative action will likely be necessary to clarify the intent of the “Rule of
Two.”

Clarification Needed in the FAR
Having reviewed our original analysis and the GAO decision, we concluded that there is
a conflict between FAR Part 16, “Types of Contracts,” and FAR Part 19, “Small Business
Programs,” regarding setting aside task orders for small business concerns. Public Law
107-115, Section 534 part (f) further supports our conclusion. In it, Congress gives the
U.S. Agency for International Development authority to set aside task orders under IDIQ
contracts for small business concerns. If task orders were already allowed to be set aside
for small business concerns as stated by GAO, then the U.S. Agency for International
Development should not have needed authority to do so.

In its “Report of the Acquisition Advisory Panel to the Office of Federal Procurement
Policy and the United States Congress,” January 2007, the Acquisition Advisory Panel4
also determined that explicit guidance is necessary for setting task orders aside for small
business concerns for orders against multiple-award contracts The panel recognized that
agencies are limiting competition for orders to small business concerns under full and
openly competed multiple-award IDIQ contracts, even though there is no express legal
authority to limit competition for orders based on socioeconomic status. The panel
further determined that this procurement strategy is not contrary to the fair opportunity
provisions in FAR 16.505(b), but is contrary to Section 803 of the National Defense
Authorization Act of 2002 concerning DoD orders for services valued at more than
$100,000. In contrast to the fair opportunity provisions, Section 803 and its
implementing regulations state that, when ordering services valued at more than
$100,000, DoD must inform all contractors offering the required services of its intent to


4
 The Acquisition Advisory Panel was authorized by section 1423 of the Services Acquisition Reform Act
of 2003. The panel reviews laws, regulations, and Government-wide acquisition policies regarding various
contracting and acquisition topics.


                                                   7
purchase. DoD must provide a description of the work and the basis on which selection
will be made, unless one of the fair opportunity exceptions in Defense Federal
Acquisition Regulation Supplement (DFARS) 216.505-70, “Orders under multiple award
contracts,” applies. Further, DoD must afford “all contractors responding to the notice a
fair opportunity to submit an offer and have that offer fairly considered.”

Finally, the panel stated that, because there is no express authority for the procurement
strategy, there are also no implementing regulations. The panel further noted that the
lack of implementing regulations has resulted in inconsistent application, and without
further guidance, the procurement strategy will continue to be applied inconsistently.
Although the panel published its report in January 2007, we are currently unaware of any
legislative action taken to provide further guidance for setting aside task orders under
multiple-award IDIQ contracts. Therefore, we recommended that the Director of
Defense Procurement and Acquisition Policy and Strategic Sourcing request that the
Defense Acquisition Regulation Council, in coordination with the Federal Acquisition
Regulation Council, assess whether the FAR needs to be updated to provide explicit
guidance on the allowability of small business set-asides for task orders on
multiple-award IDIQ contracts.

Conclusion
Of the 133 task orders we reviewed valued at $469.3 million, the Navy did not
adequately compete 39 task orders. The SeaPort-e program manager should enforce the
SeaPort-e ConOps guidance to ensure that contractors have adequate time to develop and
submit competitive bids for task orders and enforce the FAR to ensure that adequate
market research is performed. In addition, because the use of small business set-asides
for task orders on multiple-award IDIQ contracts is not clearly defined in the FAR,
guidance on small business set-asides needs to be rewritten and explicitly defined. We
estimate that 29.3 percent (324) of the 1,106 task orders from which we drew our sample
were not awarded based on adequate competition; for more details see Appendix D.
Therefore the SeaPort-e program manager cannot be certain DoD received the best value
in the services being acquired.

Management Comments on the Finding and Our
Response
Naval Sea Systems Command Comments
The NAVSEA Director of Contracts, responding for the SeaPort-e program manager,
stated that, although they agreed with the spirit of our recommendations, such as effective
competition and proper set-asides, they respectfully disagreed with our findings that
SeaPort-e task orders were not awarded based on adequate competition and are being
improperly set aside for small businesses.

The Director stated that the SeaPort-e portal is a tool used by the ordering activities to
solicit, award, and administer task orders under multiple-award IDIQ contracts. The
SeaPort-e program office is responsible for ensuring that the portal is operational,


                                              8
awarding the multiple-award contracts, negotiating any enhancements to the portal, and
coordinating issues or concerns from the Governance Council. The Governance Council
is made up of representatives from each of the ordering activities authorized to use
SeaPort-e. According to the Director, the Governance Council developed the business
rules by which SeaPort-e operates and continues to vet proposed changes and
enhancements to SeaPort-e.

The NAVSEA Director of Contracts stated that the SeaPort-e ordering activities do not
report to the SeaPort-e program manager. Each ordering activity is an autonomous
assessable unit, responsible to its parent command for compliance with all procurement
regulations, including those that govern SeaPort-e. Similarly, the Director stated that
individuals that process SeaPort-e actions at the various ordering activities do not work
for the SeaPort-e program manager but are employees of their activity.

Our Response
We did not find evidence that the contracting officer had a reasonable expectation of 2 or
more offers from small businesses on the 14 task orders identified. Specifically, these 14
task order files did not have documentation supporting adequate competition or market
research to justify the set-aside.

Minutes from the biweekly meeting of the Governance Council from October 2007
through April 2008 showed that only Navy and Marine Corps ordering activities
participated; non-Navy ordering activities had no representation. Therefore, it is not clear
how the Director of Contracts can ensure that all ordering activities participate in vetting
proposed changes or enhancements to SeaPort-e.

In light of the NAVSEA Director of Contracts’ comments and subsequent meetings we
had with Navy representatives, we agree that the SeaPort-e program manager manages
the SeaPort-e portal. The SeaPort-e program manager does not, however, have the
implied authority to direct change to all SeaPort-e ordering activities. As the Director
stated, that authority resides with each parent command. Because SeaPort-e ordering
activities are decentralized, the Deputy Assistant Secretary of the Navy (Acquisition and
Logistics Management) (DASN [A&LM]) should validate that all contracting officers
using SeaPort-e consistently comply with all Federal and DoD acquisition regulations.

Recommendations, Management Comments, and Our
Response
Revised and Redirected Recommendations
The NAVSEA Director of Contracts commented that the SeaPort-e program manager
does not have the authority to implement the draft recommendations across all SeaPort-e
ordering activities. Therefore, we have revised and redirected all recommendations to the
DASN (A&LM), except Recommendation A.1.




                                             9
Nonetheless, we include below comments on the draft recommendations from the
NAVSEA Director of Contracts and the DASN (A&LM) Chief of Staff/Policy.

A.1. We recommend that the Director of Defense Procurement and Acquisition
Policy and Strategic Sourcing request that the Defense Acquisition Regulations
Council, in coordination with the Federal Acquisition Regulations Council,
determine whether the Federal Acquisition Regulation needs to be updated to
provide explicit guidance on the allowability of small business set-asides for task
orders on indefinite-delivery, indefinite-quantity contracts.

Defense Procurement and Acquisition Policy and Strategic
Sourcing Comments
The Director, Defense Procurement and Acquisition Policy and Strategic Sourcing
agreed. The Defense Acquisition Regulations Council, in coordination with the Federal
Acquisition Regulations Council and appropriate legal counsel, will determine whether
the FAR needs to be updated to provide explicit guidance on the allowability of small
business set-asides for task orders on multiple-award IDIQ contracts.

Our Response
The Director agreed and no further comments are required.

Naval Sea Systems Command Comments
Although not required to comment, the NAVSEA Director of Contracts agreed that the
Director, Defense Procurement and Acquisition Policy and Strategic Sourcing should
request clarification from the Defense Acquisition Regulations and the Federal
Acquisition Regulations Councils to determine whether an update to the FAR is required
to allow small business set-asides for task orders under multiple-award IDIQ contracts.

Deputy Assistant Secretary of the Navy (Acquisition and
Logistics Management) Comments
Although not required to comment, the Chief of Staff/Policy, DASN (A&LM) endorsed
the NAVSEA Director of Contracts’ comments. The Chief of Staff/Policy stated that his
organization will assist the Director of Defense Procurement and Acquisition Policy and
Strategic Sourcing with the review and any necessary updates to the regulation. The
Chief of Staff/Policy stated that the DASN (A&LM) participates with the Director of
Defense Procurement and Acquisition Policy and Strategic Sourcing, representatives
from the Defense Acquisition University, and the other Services on committees to assess
the effectiveness of Navy guidance and training for executing performance-based
acquisitions and recommend improvements the Navy will pursue.

A.2. We recommend that the Deputy Assistant Secretary of the Navy (Acquisition
and Logistics Management):

     a. Issue a memorandum that requires all contracting officers using SeaPort
Enhanced to document in the SeaPort Enhanced portal that adequate competition,


                                          10
as defined in Federal Acquisition Regulation 19.502-2(b), was achieved when setting
a task order aside for small businesses, and designate an office or group to verify at
least semiannually that contracting officers using SeaPort Enhanced are following
Federal Acquisition Regulation 19.502-2(b).

Naval Sea Systems Command Comments
The NAVSEA Director of Contracts disagreed. The Director stated that a small business
set-aside determination is based on the reasonable expectation of two offers and is not
improper simply because only one offer is received. The SeaPort-e ConOps provides
instructions for the Deputy for Small Business at each ordering activity to review small
business requirements in the portal. Some activities perform the presolicitation review
outside the portal and document the written determination either in the portal or in
hardcopy.

The Director stated that the SeaPort-e program manager will notify all ordering activities
by e-mail of the requirement for the Deputy for Small Business to review all
requirements and include written documentation of their review in the portal. The
ConOps will also be updated to include instructions for uploading documentation
completed outside the portal. Finally, in May 2009 the portal software will be updated to
require the Deputy for Small Business to review each task order before issuing it.

Finally, the Director stated that NAVSEA headquarters will review this requirement to
verify that contracting officers are following FAR 19.502-2(b) as part of the Procurement
Performance Management Assessment Program (PPMAP) reviews for all of NAVSEA.
The SeaPort-e program office will recommend similar action be taken by the parent
commands for each SeaPort-e ordering activity. This will be communicated through the
Governance Council’s biweekly meeting.

Our Response
We did not intend to imply that a set-aside is improper simply because only one offer was
received. We considered a set-aside improper if the contracting officer did not maintain
adequate evidence of market research in the task order file and the task order received
only one small business bid. The files for the 14 task orders we determined to be
improperly set aside contained no evidence that the contracting officer performed
adequate market research to justify setting the task order aside, or that more than one
offer was received.

Navy representatives stated that the SeaPort-e program manager does not have the
authority to enforce compliance by all SeaPort-e ordering activities. Therefore, the
DASN (A&LM) should require the small business deputies at each ordering activity to
document their review in the portal, and he should notify them that the portal software
will be updated. We request that the DASN (A&LM) comment on the final report by
June 8, 2009. His comments should include a plan of action and milestones to implement
each part of the revised recommendation.




                                            11
        b. Implement the SeaPort Enhanced Concept of Operations as requirements
rather than guidelines; and designate an office or group to perform quarterly
reviews of task orders to verify that all SeaPort Enhanced contracting officers
consistently comply with requirements, and develop consequences for contracting
officers who do not.

Naval Sea Systems Command Comments
The NAVSEA Director of Contracts disagreed. The Director stated that the ConOps
provides guidelines rather than firm requirements for proposal response times based on
the estimated dollar value and period of performance of a task order. The guidelines are
not intended to limit a contracting officer’s discretion. The Director stated that the
SeaPort-e program office is trying to decrease procurement time while enhancing
competition. The Director stated that there are ways other than strictly adhering to
proposal response times to enhance competition. These include the use of advance
planning notices, industry days, draft solicitations or draft statements of work, and
standardized work packages. The Director said the SeaPort-e program office would ask
the Governance Council for recommendations on increasing competition during the
February 2009 meeting, with recommendations due by March 2009.

Our Response
The Director of Contracts comments focused on proposal response times, the ConOps as
guidelines, and Governance Council recommendations. According to the Director of
Contracts, the SeaPort-e program office strives to decrease procurement time while
enhancing competition. Although the examples he provided to enhance competition are
noteworthy, there is still no office or group that can ensure consistent implementation
across the SeaPort-e program.

The ConOps cannot be effective if it is viewed only as guidelines. Additionally, no
centralized office or organization is responsible to ensure that the ConOps requirements
are consistently met. Below are a few examples of changes the Navy proposed to the
ConOps in response to our recommendations.

          The small business deputies will review all competition requirements and
           upload documentation to the portal before issuing the task order.
          Waivers obtained in accordance with DFARS 237.170-2 for task orders that
           are not performance based must be uploaded to the portal.
          Documentation of COR appointments made in accordance with DFARS
           201.602 will be uploaded to the portal.

Finally, since the SeaPort-e program office does not have authority over the decentralized
ordering activities, it will ask the Governance Council for recommendations on methods
to enhance competition while decreasing overall procurement timelines. Yet because
non-Navy ordering activities did not have representation at Governance Council meetings
from October 2007 to April 2008, it is unclear whether these non-Navy ordering activities
will be notified of changes to guidelines or requirements. The SeaPort-e program
manager’s authority is reduced to notifying all ordering activities by e-mail of


                                           12
requirements and updates to the ConOps, asking the Governance Council for
recommendations on how to enhance competition, and recommending that parent
commands of each ordering activity review performance-based service acquisition.
Finally, we do not believe the ConOps is the appropriate instrument to ensure consistent
implementation since the ConOps is seen by SeaPort-e ordering activities as a set of
guidelines.

Therefore, we request that the DASN (A&LM) comment on the final report by June 8,
2009. His comments should include a plan of action and milestones to implement each
part of the revised recommendation to ensure consistent and well-informed decision
making by all SeaPort-e ordering activities.




                                           13
Finding B. Quality Assurance Requirements
From our sample of 133 task orders valued at $2.1 billion, 118 valued at $1.4 billion did
not meet quality assurance requirements. The SeaPort-e program office did not review
that task orders were written to be performance based, had acceptable QASPs, and had
CORs5 designated. The occurred because the SeaPort-e program office used a
decentralized ordering process and did not perform periodic reviews to ensure that
contracting officers were complying with FAR, DFARS, and SeaPort-e guidance.
Additionally, the contracting officers and SeaPort-e users found it difficult to develop
specific quality assurance requirements because they did not fully understand the
performance-based service acquisition process and the SeaPort-e task order scopes were
too broad. Based on the sample results, we estimate that 89 percent or 981 of the
1,106 task orders did not meet quality assurance requirements; for more details see
Appendix D. Therefore, the program office cannot ensure that SeaPort-e task orders
provide DoD with the best overall services.

Performance-Based Acquisition
Criteria for Performance-Based Acquisition
The FAR and SeaPort-e guidance establish requirements for acquiring services and
products from contractors. FAR 16.505(a)(3) states that performance-based acquisition
methods must be used to the maximum extent practicable if the contract or order is for
services. FAR 37.601, “General,” states that contracts for performance-based services
should include a performance work statement, measurable performance standards (for
example, quality, timeliness, and quantity), the method of assessing contractor
performance against the standards, and performance incentives when appropriate.

FAR 37.602, “Performance work statement,” states that the performance work statement
shall enable the assessment of work performance against measurable performance
standards. Measurable standards and incentives are also encouraged so contractors can
develop innovative approaches in a competitive environment.

The SeaPort-e ConOps also states that contracts are encouraged to be performance based.
The SeaPort-e acquisition strategy states that a performance-based environment will
allow the Navy to procure professional support services at a fair and reasonable price to
meet DoD objectives. Therefore, the use of performance-based contracting for SeaPort-e
task orders will promote competition.

Results of Our Review
Of 133 task orders we reviewed, 24 complied with FAR requirements for
performance-based acquisition. These task orders included performance requirements


5
SeaPort-e refers to CORs as task order managers. However, to be consistent with language in the FAR,
we use the term COR throughout this report.


                                                  14
tables in the performance work statement, in the statement of work, or as an attachment
to the task order. These task orders included details on the tasks, performance objectives,
performance standards, acceptable quality levels, and surveillance methods. All 24
specifically addressed the requirements of the task order. However, 109 of 133 task
orders in our sample did not include the performance-based elements outlined in the FAR
and SeaPort-e guidance.

Specifically, the 109 SeaPort-e task orders did not specify measurable standards by which
to evaluate the contractor’s performance. For example, 47 of the 109 task orders did not
mention performance-based requirements in the task order or performance work
statement. Additionally, these task orders did not contain any measurable performance
standards or method of assessing contractor performance as required by FAR 37.601.

Other task orders included nonmeasurable performance standards. Of the remaining task
orders that did not include performance-based requirements, 37 stated that the task order
was performance based; mentioned timeliness, quality, and cost as factors for evaluating
performance; or identified objectives and deliverables for the tasks. However, none of
these items had measurable standards mandated by FAR 37.601 that could be used to
evaluate performance. The remaining 25 of the 109 task orders included some
measurable standards. However, these measures were included in a performance
standards or deliverables table not coordinated specifically with the task order
requirements, as required by FAR 37.601. These tables show that the individuals writing
the task orders tried to write them as performance based, but the writers used standard
language that was not specific to an individual task order.

Task Order Scope
Contracting officers did not write detailed performance requirements for SeaPort-e task
orders because the scopes of the task orders were too large. The overall scope of the
SeaPort-e contract includes 22 functional areas that range from engineering services to
clerical work. In many cases, the scopes of individual task orders include several of the
22 functional areas. For example, one task order included 9 of the 22 support services.
Meaningful measurement standards needed for nine separate support services cannot be
appropriately addressed in one task order.

The contracting officers structured these task orders with large scopes as IDIQ contracts,
even though the ConOps strictly prohibits doing so. In addition, we found that the task
orders did not follow the typical IDIQ structure outlined in FAR Subpart 16.5,
“Indefinite-Delivery Contracts,” in which the contract requirements are known, but the
specific quantities are yet to be determined. Rather, the contracting officers wrote the
task orders’ scopes large enough to cover those services and later issued technical
instructions that outlined the specifications of the services to the contractor. In essence,
the task orders functioned as IDIQ contracts, and the technical instructions served as the
task orders. This structure hinders the ability to assign meaningful performance metrics
and quality standards required by FAR 16.505(a)(3).




                                             15
Although the task orders mentioned above demonstrate that individuals writing them
have a basic understanding of performance-based contracting, the SeaPort-e program
office should review the writing process to ensure that contracting officers are following
FAR and SeaPort-e guidance. This includes ensuring that individuals are being trained in
how to write performance-based task orders, reducing the broad scopes of the task orders,
and providing specific requirements and performance standards in the task orders to fully
implement performance-based contracting.

Ordering Process
The SeaPort-e program office has a decentralized ordering process. This allows all
SeaPort-e ordering offices to develop and award performance-based task orders using
their own methods. The SeaPort-e acquisition strategy notes the primary risks of the
SeaPort-e Program are a lack of fair opportunity to be considered and a lack of oversight.
The SeaPort-e acquisition strategy established the SeaPort-e Governance Board, chaired
by the SeaPort-e program office with participation by the four Navy SYSCOMs, to
mitigate the risk of a lack of oversight. However, the program office did not have a
method of ensuring that FAR, DFARS, and SeaPort-e standards for performance-based
requirements, QASPs, and CORs were included in the SeaPort-e task orders.

Quality Assurance Surveillance Plans
Criteria for QASPs
FAR 37.604, “Quality Assurance Surveillance Plans,” states that QASPs can be
developed by the Government or can be required to be included as part of the contractor’s
proposal.

FAR Subpart 46.4, “Government Contract Quality Assurance,” states that QASPs should
be prepared in coordination with the performance work statement. FAR 46.401(a)(1-2)
states that QASPs should identify all the work in the task order requiring surveillance and
the method of surveillance. The surveillance can be performed at any time or location
deemed necessary to ensure that services conform to contract requirements.

FAR 46.103, “Contracting Office Responsibilities,” states that the activity responsible for
technical requirements shall provide the contracting office with any specifications for
inspection, testing, and other contract quality requirements essential to ensure the
integrity of the supplies or services, including prescribing contract quality requirements
or, for service contracts, a QASP.

Results of Our Review
We identified only 19 of 133 task orders that had acceptable QASPs. Two QASPs, in our
opinion, could serve as examples for the program office to add to the SeaPort-e ConOps.
One of the QASPs outlines the process used to monitor and evaluate contractor
performance. It includes background; how surveillance will be done; how the contractor
evaluation will be scored; when the evaluations will be reviewed; how deficiencies will
be addressed; and a breakdown of each requirement of the task order, including the
performance standard, measurement method, and evaluation criteria. The second QASP


                                            16
is one the site plans to use as a template for all future QASPs. In addition to the elements
outlined in the first example, this QASP includes instructions on how to prepare the
QASP.

However, 114 of 133 task orders either did not have a QASP or had an inadequate QASP,
according to FAR requirements. The problems with the QASPs appear to stem from a
lack of training and oversight of SeaPort-e users.

Training and Oversight
Individuals responsible for issuing SeaPort-e task orders do not fully understand the
performance-based service acquisition process. Task orders are not written as
performance based, and they do not include QASPs. Individuals responsible for
SeaPort-e task orders at multiple sites stated that they have not implemented FAR and
SeaPort-e requirements. Therefore, oversight and training of all SeaPort-e users would
help establish an understanding of the performance-based service acquisition process and
ensure that FAR and SeaPort-e requirements are being implemented.

Contracting officers stated they were not required by their office to develop a QASP.
Seven sites issued task orders whose statements of work contained information labeled as
or similar to that of a QASP. However, the information was boilerplate used for that
site’s task orders. For example, the information was about meetings, reports, and a
review of deliverables that would serve as the Government’s form of surveillance.
However, the information was not tied to the task order requirements or included with the
performance work statement. One of the seven sites considered the Award Term Plan,
which is included as part of the SeaPort-e IDIQ contract, to be equivalent to a QASP for
all of that location’s task orders. This practice demonstrates that, although some
locations have a basic understanding of a QASP, additional training and program office
oversight could ensure that FAR requirements are met.

SYSCOM Processes and Guidance
The NAVSEA sites in Newport, Rhode Island, and Panama City, Florida, had individuals
who assisted with the development of quality assurance standards for task orders. These
individuals reviewed the task orders before solicitation to ensure performance-based
requirements and QASPs were included. Other sites that have developed internal
guidance on these quality assurance areas include NAVSUP in Philadelphia,
Pennsylvania, and SPAWAR Headquarters in San Diego, California. The SeaPort-e
program office should consider developing and disseminating similar internal guidance to
all SeaPort-e users to ensure that contracting officers establish acceptable QASPs.

Designation of Contracting Officer’s Representative
Criteria for Designating a COR
DFARS 201.602, “Contracting Officers,” states that contracting officers may designate
qualified personnel as their authorized representatives to assist in the technical
monitoring or administration of a contract. A COR must be a Government employee;
must be qualified by training and experience; and cannot make any changes that affect


                                            17
the price, quality, quantity, delivery, or other terms and conditions of a contract. The
designation of a COR must be in writing, indicate the extent and period of the COR’s
authority, state that the authority cannot be further delegated, and advise that the COR
may be personally liable for unauthorized acts.

Results of Our Review
Of the 133 task orders, 35 did not have CORs designated in accordance with DFARS
requirements. Task orders prepared at one location did not appoint CORs because
officials there said CORs were a requirement of FAR Part 15, “Contracting by
Negotiation,” and not a requirement of FAR Subpart 16.5, which discusses IDIQ
contracts. As a result of this interpretation, the officials did not require contracting
officers to designate CORs. Another site did not designate CORs for the older task
orders we reviewed. A contract specialist at that site stated designating a COR was not
standard practice when the site started using SeaPort-e contracts, but is now done for all
task orders. Some CORs we talked to stated they do not actively supervise the
contractor’s work. The SeaPort-e program office should provide oversight to ensure
DFARS requirements are being implemented.

Summary
Quality assurance, which includes performance-based requirements, QASPs, and COR
designations, was not in place in our sample for 118 task orders valued at $1.4 billion.
The SeaPort-e program manager did not ensure that task orders were written to be
performance based, had acceptable QASPs, or designated a COR. The broad scopes of
the task orders being created made it difficult to include measurable and specific quality
assurance requirements. Those responsible for writing SeaPort-e task orders, and the
related performance work statements and QASPs, did not fully understand the
performance-based service acquisition process. Also, the SeaPort-e program manager
created a decentralized ordering process in SeaPort-e and did not periodically review task
orders to ensure that contracting officers complied with Federal and DoD guidance. We
estimate that 89 percent (981) of the 1,106 task orders from which we drew our sample
did not meet quality assurance requirements; for more details see Appendix D.
Therefore, the program office cannot ensure that SeaPort-e task orders provide DoD with
the best overall services.

Management Comments on the Finding and Our
Response
Naval Sea Systems Command Comments
The NAVSEA Director of Contracts, responding for the SeaPort-e program manager,
stated that, although they agreed with the spirit of our recommendations, such as writing
performance-based task orders and designating CORs, they respectfully disagreed with
our findings that task orders did not have CORs designated.

The Director stated that the SeaPort-e ordering activities do not report to the SeaPort-e
program manager. Each ordering activity is an autonomous assessable unit, responsible


                                            18
to its parent command for compliance with all procurement regulations, including those
that govern SeaPort-e. The Director stated that individuals who process SeaPort-e
actions at the various ordering activities do not work for the SeaPort-e program manager
but are employees of their activity.

Our Response
Across all SYSCOMs, 35 of the 133 task orders reviewed did not have CORs designated;
for more details see Tables C-1 and C-3 in Appendix C. Additionally, we estimate that
89 percent of the 1,106 task orders from which we drew our sample did not meet all
quality assurance requirements.

Because no office or group oversees the SeaPort-e program, it is not clear how
implementing any of the solutions the Navy suggested in the comments will ensure
contracting officers consistently comply with all applicable procurement regulations.

Recommendations, Management Comments, and Our
Response
Revised and Redirected Recommendations
As a result of comments from the NAVSEA Director of Contracts and the decentralized
nature of the SeaPort-e program, we have revised, combined, and redirected the
following recommendations to the DASN (A&LM). Recommendation B.1. covers draft
Recommendations B.1.a., B.1.c., and B.1.d. Recommendation B.2. covers draft
Recommendation B.1.b., and Recommendation B.3. covers draft Recommendation B.1.e.

Below we include comments on the draft recommendations from the NAVSEA Director
of Contracts and the DASN (A&LM) Chief of Staff/Policy.

B. We recommend that the Deputy Assistant Secretary of the Navy (Acquisition
and Logistics Management):

        1. Implement the SeaPort Enhanced Concept of Operations as requirements
rather than guidelines, and designate an office or group to verify that contracting
officers using SeaPort Enhanced receive training on writing performance-based
task orders, issue performance-based task orders, and develop acceptable quality
assurance surveillance plans.

Naval Sea Systems Command Comments
In response to draft Recommendations B.1.a., B.1.c., and B.1.d. (now included in
Recommendation B.1.), the NAVSEA Director of Contracts disagreed. He stated that the
draft recommendations should have been addressed to the DASN (A&LM).

The Director agreed that contracting officers at SeaPort-e ordering activities should have
training on writing performance-based task orders. Therefore, he said that by April 2009,
the SeaPort-e program office would add to the ConOps (1) a listing of training resources


                                           19
identified by the Defense Acquisition University, (2) the Performance-Based Service
Acquisition Guidebook as an exhibit, and (3) the SeaPort-e QASPs we identified as
acceptable examples. In addition, NAVSEA is contracting for the development of
performance-based service acquisition training courseware, which will be made available
to the SeaPort-e ordering activities in June 2009. Finally, the SeaPort-e program office
procured a performance-based work statements module available through the portal, and
content of templates for each of the 22 functional areas is being developed in
coordination with the Governance Council. This effort may be completed by December
2009. The Director also stated that the ConOps will be updated to specify that waivers
obtained in accordance with DFARS 237.170-2 for task orders that are not performance
based must be uploaded to the portal.

Finally, the Director stated that NAVSEA headquarters will review performance-based
service acquisition as part of the PPMAP reviews for all of NAVSEA. The SeaPort-e
program office will recommend that similar action be taken by the parent commands for
each SeaPort-e ordering activity. This recommendation will be communicated through
the Governance Council’s biweekly meeting.

Deputy Assistant Secretary of the Navy (Acquisition and
Logistics Management) Comments
In response to draft Recommendations B.1.a., B.1.c., and B.1.d. (now included in
Recommendation B.1.), the Chief of Staff/Policy, DASN (A&LM) endorsed the
Director’s comments. The Chief of Staff/Policy stated that his organization will forward
this report to the SeaPort-e ordering activities and will emphasize appropriate training for
contracting personnel, compliance with regulations and guidance for orders issued under
the SeaPort-e multiple-award contracts, and development of appropriate QASPs. The
Chief of Staff/Policy’s forwarding memorandum, to be issued by April 30, 2009, will
also emphasize use of the improved SeaPort-e portal tools as they become available.

Our Response
After discussions with the Navy we agree with the Director that the SeaPort-e program
manager does not have the authority over the SeaPort-e ordering activities to direct
training or verify that SeaPort-e ordering activities are complying with Federal and
Defense acquisition regulations. Therefore, given the SeaPort-e program manager’s lack
of authority and the NAVSEA Director of Contracts’ statement that the ConOps are
merely guidelines, it is not clear how updating the ConOps or recommending reviews
similar to the PPMAP at other parent commands will ensure consistency or compliance.

We request that the DASN (A&LM) provide a plan of action and milestones to
implement each part of the revised recommendation by June 8, 2009.

       2. Enforce the SeaPort Enhanced Concept of Operations to restrict the scope
of each task order to known requirements, and develop consequences for
contracting officers who award task orders for requirements that are not defined.




                                             20
Naval Sea Systems Command Comments
The NAVSEA Director of Contracts disagreed. He stated that task orders that include
multiple functional areas are not necessarily written as IDIQ contracts and that the use of
technical instructions is not necessarily indicative of undefined requirements.

The Director stated that many of his proposed solutions—such as updating the ConOps,
developing training and templates, and including a review of performance-based service
acquisition as part of the PPMAP—will improve the writing of performance-based work
statements and lead to more meaningful performance standards. The SeaPort-e program
office will reiterate to ordering activities through their Governance Council
representatives the ConOps guidance regarding task order requirements during the
February 2009 Governance Council meeting.

Our Response
Since the SeaPort-e program manager does not have the authority to require changes
across all SeaPort-e ordering activities, it is not clear how reiterating the ConOps will
improve consistency and compliance. Although the NAVSEA Director of Contracts
stated that the PPMAP would review performance-based service acquisition for
NAVSEA, there is no assurance that other ordering activities, including the non-Navy
ordering activities not represented at the Governance Council meetings, will undertake a
similar review. Therefore, to ensure consistency and establish accountability, the
DASN (A&LM) should establish requirements across all SeaPort-e ordering activities
and name an office or group to enforce compliance. We request that the DASN (A&LM)
provide a plan of action and milestones by June 8, 2009, to implement each part of the
revised recommendation.

       3. Designate an office or group to verify at least semiannually that
contracting officers using SeaPort Enhanced are designating contracting officer’s
representatives in accordance with Defense Federal Acquisition Regulation
Supplement 201.602.

Naval Sea Systems Command Comments
The NAVSEA Director of Contracts disagreed. He stated the recommendation should
have been addressed to the DASN (A&LM).

The Director stated that the SeaPort-e portal software will not allow a task order to be
awarded without a task order manager being designated. The ConOps states that when a
task order manager performs any of the functions traditionally performed by a COR,
appointment of the task order manager must comply with the procedures of the task order
manager’s requiring activity for appointing CORs, including training, certification, and
maintaining appointment letters. The ConOps will be updated to require that COR
appointments be made in accordance with DFARS 201.602, and that the written
appointment be uploaded to the portal.

In addition, NAVSEA headquarters will incorporate a review of this requirement as part
of the PPMAP reviews for all NAVSEA activities. The SeaPort-e program office will


                                            21
recommend that similar action be taken by the parent commands for each ordering
activity. This recommendation will be communicated through the Governance Council’s
biweekly meeting.

Deputy Assistant Secretary of the Navy (Acquisition and
Logistics Management) Comments
The Chief of Staff/Policy, DASN (A&LM) endorsed the Director’s comments. The
Chief of Staff/Policy stated that his organization will forward this report to the SeaPort-e
ordering activities and will emphasize proper appointments of those fulfilling COR
functions. The Chief of Staff/Policy will issue a forwarding memorandum by April 30,
2009, which will also emphasize use of the improved SeaPort-e portal tools as they
become available.

Our Response
The SeaPort-e program office lacks authority to effect change simply by updating the
ConOps. Additionally, the DASN (A&LM)’s proposed action of forwarding this final
report to the SeaPort-e ordering activities does not ensure that all SeaPort-e ordering
activities will comply with DFARS 201.602. Therefore, we request that the
DASN (A&LM) comment on the final report by June 8, 2009. His comments should
include a plan of action and milestones to implement each part of the revised
recommendation.




                                             22
Appendix A. Scope and Methodology
We conducted this performance audit from November 2007 through November 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We conducted interviews and gathered documentation covering the period from 2004 to
2007 to gain an understanding of the management oversight, use of small business set-
asides, information assurance, and funding1 of the SeaPort-e program. Specifically we
interviewed the SeaPort-e program manager, the Deputy for Small Business, and other
personnel from the SeaPort-e program office at NAVSEA in Washington, D.C. We also
interviewed contracting personnel at the Naval Surface Warfare Center in Dahlgren,
Virginia, where the SeaPort-e contract was awarded and is administered. In addition, we
interviewed the Deputy for Small Business at each SYSCOM on the subject of small
business set-asides, and we interviewed the business financial manager at each SYSCOM
on the subject of funding the SeaPort-e program.

We reviewed a total of 133 task orders at the following locations:
   Naval Sea Systems Command Headquarters, Washington, D.C. (8 task orders)
   Naval Surface Warfare Center, Crane, Indiana (6 task orders)
   Naval Surface Warfare Center, Dahlgren, Virginia (7 task orders)
   Naval Surface Warfare Center, Indian Head, Maryland (8 task orders)
   Naval Surface Warfare Center, Panama City, Florida (20 task orders)
   Naval Surface Warfare Center, Philadelphia, Pennsylvania (5 task orders)
   Naval Surface Warfare Center, West Bethesda, Maryland (12 task orders)
   Naval Undersea Warfare Center, Newport, Rhode Island (21 task orders)
   Naval Air Systems Command Headquarters, Patuxent River, Maryland (17 task
      orders)
   Naval Facilities Engineering Command Headquarters, Washington, D.C. (2 task
      orders)
   Naval Medical Logistics Command, Frederick, Maryland (1 task order)
   Fleet Industrial Supply Center, Philadelphia, Pennsylvania (5 task orders)
   Fleet Industrial Supply Center, San Diego, California (2 task orders)
   Fleet Industrial Supply Center, Seal Beach, California (3 task orders)
   Space and Naval Warfare Systems Command Headquarters, San Diego,
      California (12 task orders)
   Space and Naval Warfare Systems Command Systems Center, San Diego,
      California (3 task orders)
   U.S. Marine Corps Regional Contracting Office, Quantico, Virginia (1 task order)


1
    Funding is discussed in Appendix B.


                                           23
During site visits we gathered task order documentation and interviewed contracting
personnel regarding competition, quality assurance, information assurance, task order
fees, and task order administration. Within each focus area, we developed and answered
12 uniform YES or NO questions in completing our task order review, and then
formulated a single YES or NO response based on the individual answers. We decided
that an overall answer of YES would occur only when the answers to all of the individual
questions within a focus area were YES. Similarly, we weighted the individual questions
so that a NO answer for any one of the individual questions would result in an overall
answer of NO for that section.

Competition (Finding A)
   1. Were contractors provided a fair opportunity to compete for task orders?
   2. For set-aside task orders, were the task orders set aside properly?
   3. Is the contracting officer following the FAR fair opportunity requirement by
       NOT first issuing a small-dollar-value task order and then using follow-on, sole-
       source task orders for greater dollar values based on the follow-on exception to
       the fair opportunity process?

Quality Assurance (Finding B)
    4. Was the task order written to be performance based?
    5. Was a quality assurance surveillance plan developed for the task order?
    6. Did the contracting officer designate a contracting officer’s representative for the
        task order?

Information Assurance
     7. Were pertinent information assurance requirements identified in the task order?

Task Order Fees
    8. Did the contracting officer properly establish fees for cost-plus-fixed-fee and
        cost-plus-award-fee task orders?

Task Order Administration
    9. Were the task orders within the scope of the basic contract?
   10. Were the requirements adequately identified in the task order?
   11. Did the contracting officer ensure that inherently governmental functions were
        performed only by Government employees?
   12. Were all subcontractors authorized to perform work on SeaPort-e task orders?

Use of Computer-Processed Data
We used computer-processed data from the Electronic Document Access system. The
Electronic Document Access system2 is a Web-based system that provides secure online
access, storage, and retrieval of contracts and contract modifications to authorized users
throughout DoD. Using this system, we gathered all task orders and task order


2
    The system is available at http://eda.ogden.disa.mil.


                                                        24
modifications for the 133 task orders in our sample. To verify that we gathered the
correct information, we reviewed the contract files during each site visit.

We also used computer-processed data from the SeaPort Task Order Management
System, also referred to as the SeaPort-e portal. The SeaPort-e portal provides a
standardized means of issuing solicitations to approved contractors as well as a platform
for awarding and managing task orders. We did not test the reliability of the SeaPort-e
portal. However, we corroborated the information during site visits and through the use
of additional information provided by the SeaPort-e program office or the contracting
office.

For each task order we reviewed, we collected data related to competition and small
business participation. Specifically, we gathered:
    a task order routing history, which calculated the number of business days the task
       order’s solicitation was available to the contractor;
    a bid event history showing which contractors were issued a solicitation; and
    a small business record showing whether the task order was set aside and the
       contracting officer’s rationale for the decision.

Overall, we considered the computer-processed data we used to evaluate the SeaPort-e
task orders to be sufficient. Through direct reviews of the contract files during site visits
and the use of additional information from the program office, we were able to
corroborate the information and mitigate the risk of invalid or unreliable data.

Use of Technical Assistance
The DoD Office of Inspector General’s Quantitative Methods and Analysis Division
assisted with the audit by developing the statistical sample of task orders to be reviewed.
Appendix D provides information about the work performed by the Quantitative Methods
and Analysis Division.

Prior Coverage
During the last 5 years, GAO and the DoD Inspector General (IG) have issued six reports
discussing performance-based service acquisition and quality assurance in IDIQ service
contracts. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports.

GAO
GAO Report No. GAO-07-20, “Tailored Approach Needed to Improve Service
Acquisition Outcomes,” November 2006

GAO Report No. GAO-05-274, “Opportunities to Improve Surveillance on Department
of Defense Service Contracts,” March 2005




                                             25
DoD IG
DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
Solutions Contract,” October 25, 2007

DoD IG Report No. D-2007-079, “Performance-Based Service Contract for
Environmental Services at the Navy Public Works Center, San Diego, California,”
April 3, 2007

DoD IG Report No. D-2006-010, “Contract Surveillance for Service Contracts,”
October 28, 2005




                                         26
Appendix B. Other Matters of Interest
During the audit we noted other matters of interest concerning SeaPort-e contract award
and administration. Specifically, we gathered information about program funding and
guaranteed minimum awards.

Program Funding
In October 2004, all of the SYSCOM commanders signed a memorandum of agreement
in which they committed to provide resources as required to execute the SeaPort-e
Program. According to the SeaPort-e program manager, NAVAIR, NAVSUP, and
SPAWAR are charged $500,000 per year, and NAVSEA contributes $800,000 per year
to cover the $2.3 million recurring costs of SeaPort-e. The SeaPort-e program manager
stated that NAVSUP has recently refused to pay its portion of the recurring costs. He
explained that NAVSUP officials do not think they should be charged the same amount
as NAVAIR and SPAWAR because NAVSUP uses SeaPort-e less, and because other
users of SeaPort-e, NAVFAC and the Marine Corps specifically, were using SeaPort-e
contracts without signing a memorandum of agreement or being charged any portion of
the recurring costs.

If the SeaPort-e program office allocated costs based on use,* NAVSEA would be
responsible for approximately 51 percent of the recurring costs, or about $1,164,260.
SPAWAR would be responsible for approximately 19 percent ($435,160), NAVAIR for
approximately 16 percent ($378,120), and NAVSUP for approximately 9 percent
($197,340). NAVFAC and the Marine Corps would be responsible for approximately
4 percent ($89,240) and 2 percent ($35,880), respectively, of the recurring costs.
Table B-1 summarizes these results.

                      Table B-1. SeaPort-e Cost Recovery for FY 2007
                       Expected          Use          Adjusted       Over or (Under)
    Command
                      Contribution    (percent)     Contribution         Charge
NAVSEA                   $800,000         50.62      $1,164,260         ($364,260)
SPAWAR                   $500,000         18.92        $435,160           $64,840
NAVAIR                   $500,000         16.44        $378,120          $121,880
NAVSUP                   $500,000          8.58        $197,340          $302,660
                                  †
NAVFAC                         $0          3.88         $89,240          ($89,240)
USMC                           $0          1.56         $35,880          ($35,880)
 Total                 $2,300,000       100.00       $2,300,000                $0
†
 Officials at NAVFAC Headquarters stated that the SeaPort-e program manager asked them to contribute
$100,000 at the end of FY 2007, and they planned to contribute $250,000 in FY 2008.




*
 For the purposes of this report, usage is defined as the weighted average percentage of task orders
awarded and total potential value of task orders at award for FY 2007.



                                                    27
The SeaPort-e program manager stated that he did not want to switch to a use-based or
transaction-based system of recovering SeaPort-e costs because the SYSCOMs prefer to
budget for a predictable amount each year. The SeaPort-e program office also stated that
it is difficult to decide how to quantify use: by transactions, dollars, or assistance (calls to
technical support, for example).

However, SPAWAR officials developed a system of dividing their portion of SeaPort-e
recurring costs that the SeaPort-e program office could use to allocate costs more fairly
than under the current method. A SPAWAR procurement contracting officer stated that
the SeaPort-e program office sends an e-mail stating that $500,000 is due. The
procurement contracting officer then divides the fee among the SPAWAR users of
SeaPort-e based on their past year’s use of the system. This method of allocation would
be simple to calculate no matter how the SeaPort-e program office decided to define use,
and would distribute the recurring costs more fairly. This fair distribution of recurring
costs might then encourage prompt and full payment by all SeaPort-e users. The
SeaPort-e program office might also consider having all users of SeaPort-e sign a
memorandum of agreement in which they agree to pay a portion of the recurring costs in
proportion to their use of the contract in order to encourage payment.

Guaranteed Minimum Amount
According to FAR 16.504(a) “Indefinite-delivery contracts,” in an IDIQ contract such as
SeaPort-e, the Government is required to order a minimum amount of services from each
contractor, and this minimum quantity must be more than a nominal amount. The reason
for this requirement, according to FAR 16.504(a)(2), is to ensure the contract is binding;
however, the specified minimum should not be greater than an amount the Government is
fairly certain to order.

The initial 152 SeaPort-e contracts had a guaranteed minimum buy from the Government
of $10,000. However, once SeaPort-e program officials made the decision to have rolling
admissions, which grant additional contractors a SeaPort-e contract, the guaranteed
minimum for all future contractors was set at $2,501.

Table B-2 identifies the guaranteed minimum amounts that have not been paid to date,
the percentage of contractors that have not been awarded a task order, and the percentage
of contractors that have not placed a bid on a task order. Data in Table B-2 came from
the SeaPort-e program office.




                                              28
               Table B-2. Guarantees Outstanding, by Rolling Admission Period
                     Guaranteed
                                            Percent of contractors not             Percent of contractors
       Year           Minimum
                                             awarded a task order1                with no task order bids2
                     Outstanding
       2004              $500,000                         32.9                                 11.2
       2005              $810,324                         66.3                                 26.6
       2006              $540,216                         87.1                                 51.6
       2007              $942,877                         96.7                                 69.2
       Total           $2,793,417                         75.6                                 42.6
1
    Calculated by dividing contract holders not awarded a task order by total contract holders.
2
    Calculated by dividing contract holders that have not bid on a task order by total contract holders.

As shown in the table, 42.6 percent of the 1,279 contractors have never placed a bid on a
task order. Approximately 975 contractors, or 75.6 percent of all SeaPort-e contractors,
have not been awarded a SeaPort-e task order, resulting in minimum obligations
outstanding for contracts awarded from 2004 through 2007 of approximately
$2.8 million. Furthermore, of the initial 152 contractors, which have had 4 years to bid
on a task order, 11 percent have not placed a bid, and 33 percent have not been awarded a
task order. The SeaPort-e contracting office suspended rolling admissions for 2009
because all of the current contracts must be renewed at that time; however, program
officials stated that rolling admissions are expected to resume in 2010. Although the total
amount of guarantees outstanding for 2004-2007 may not be a material amount given the
large value of SeaPort-e as a whole, if rolling admissions continue, eventually the price
being paid to fund minimum guarantees may outweigh (or may already outweigh) the
benefit of having additional contractors on the SeaPort-e contract. Thus, the SeaPort-e
program office should assess whether future rolling admissions will provide a return on
investment. The Navy also needs to evaluate whether the rolling admissions process
satisfies FAR 16.504(c)(1)(ii)(A) to avoid situations in which awardees specialize
exclusively in one or a few areas of the statement of work since SeaPort-e has 22 broad
scope areas. Generally, contractors under multiple-award IDIQ contracts should be
capable of filling all requirements identified in the statement of work.

Management Comments on the Appendix and Our
Response
Naval Sea Systems Command Comments
The NAVSEA Director of Contracts stated that our recommended method of allocating
SeaPort-e costs among users does not address the program management resource
function; cost of additional portal modules; or the funding required for the guaranteed
minimum amounts, which are paid for predominantly by NAVSEA.




                                                        29
Our Response
Though the NAVSEA Director of Contracts did not accept our analysis, he did not
provide an alternative for more evenly sharing costs among SeaPort-e users. The
SeaPort-e program manager should allocate SeaPort-e program costs based on contract
use, rather than charging a flat fee. Allocating costs based on use would result in better
use of the SeaPort-e users’ money and encourage prompt and full payment to the
SeaPort-e program office.




                                             30
Appendix C. Results of Our Review of 133
Task Orders
The following tables show the results of our review of 133 SeaPort-e task orders.
Table C-1 shows a summary of the results for our five focus areas: competition, quality
assurance, information assurance, task order fees, and task order administration.
Tables C-2 through C-6 show more detailed results for each ordering office we visited.
An overall YES answer for a focus area means the answer to all of the questions under
that focus area was YES.

                                 Table C-1. Summary of Results
                  Checklist Questions                         Yes              No             Other

    Competition (Finding A)                                    94              39                0

            Fair Opportunity                                  103              30                0

            No Sole-Source Follow-On                          133               0                0

            Set Aside Properly                                 41              14              781

    Quality Assurance (Finding B)                              15              118               0

            Performance Based                                  24              109               0

            Quality Assurance Surveillance Plan                19              114               0

            COR Designated                                     98              35                0

    Information Assurance                                      18               7              1082

    Task Order Fees                                           115               5              133

    Task Order Administration                                 133               0                0

            Within Scope                                      133               0                0

            Requirements Identified                           133               0                0

            No Inherently Governmental Functions              133               0                0

            Subcontractors Authorized                          87               0              464
1
  Of the 133 task orders, 78 were not set aside for small business.
2
  Of the 133 task orders, 108 did not include information technology services. Information assurance
guidance applies only to task orders for information technology services.
3
  Of the 133 task orders, 13 were firm-fixed-price orders. The remaining task orders were cost-type orders
with either fixed or award fees.
4
  Contractors for 46 of the 133 task orders reviewed did not employ subcontractors.




                                                    31
                                      Table C-2. Task Orders That Followed Competition Requirements
                                                      Task
                                                                                                                     Set Aside             All Competition
                   Site Visited                      Orders        Fair Opportunity1       No Sole Source2
                                                                                                                     Properly3          Requirements Followed
                                                    Reviewed

    Marine Corps (Quantico, VA)                          1                  0                      1                      1                      0 of 1
    NAVAIR Headquarters (Patuxent River, MD)            17                 13                     17                      7                     12 of 17
    NAVFAC Headquarters (Washington, DC)                 2                  1                      2                      1                      1 of 2
    NAVSEA Headquarters (Washington, DC)                 8                  5                      8                      2                      5 of 8
    NAVSEA (West Bethesda, MD)                          12                  7                     12                      1                      6 of 12
    NAVSEA (Crane, IN)                                   6                  6                      6                      3                      6 of 6
    NAVSEA (Dahlgren, VA)                                7                  6                      7                    N/A                      6 of 7
    NAVSEA (Indian Head, MD)                             8                  6                      8                      6                      6 of 8
    NAVSEA (Newport, RI)                                21                 20                     21                      6                     15 of 21
    NAVSEA (Panama City, FL)                            20                 15                     20                      3                     14 of 20
    NAVSEA (Philadelphia, PA)                            5                  5                      5                      1                      5 of 5
    NAVSUP (Frederick, MD)                               1                  1                      1                    N/A                      1 of 1
    NAVSUP FISC* (Philadelphia, PA)                      5                  3                      5                      4                      3 of 5
    NAVSUP FISC (San Diego, CA)                          2                  2                      2                      1                      2 of 2
    NAVSUP FISC (Seal Beach, CA)                         3                  3                      3                      2                      2 of 3
    SPAWAR Headquarters (San Diego, CA)                 12                  8                     12                      3                      8 of 12
    SPAWAR Systems Center (San Diego, CA)                3                  2                      3                    N/A                      2 of 3
                           Total                        133                103                    133                    41                    94 of 133
*Fleet Industrial Supply Center
1
 Were contractors provided a fair opportunity to compete for contracts?
2
  Is the contracting officer following the FAR fair opportunity requirements by NOT first issuing a small-dollar-value contract and then using follow-on, sole-
source contracts for greater dollar values based on the follow-on exception to the fair opportunity process?
3
  For set-aside task orders, were task orders set aside properly?




                                                                                 32
                                  Table C-3. Task Orders That Followed Quality Assurance Requirements
                                                   Task Orders        Performance                              All Quality Assurance
                 Site Visited                                                        QASP2   COR Designated3
                                                    Reviewed             Based1                                Requirements Followed

Marine Corps (Quantico, VA)                              1                 1           1           1                   1 of 1
NAVAIR Headquarters (Patuxent River, MD)                17                 3           2           17                 2 of 17
NAVFAC Headquarters (Washington, DC)                     2                 1           0           0                   0 of 2
NAVSEA Headquarters (Washington, DC)                     8                 0           0           7                   0 of 8
NAVSEA (West Bethesda, MD)                              12                 2           2           11                 2 of 12
NAVSEA (Crane, IN)                                       6                 1           1           6                   1 of 6
NAVSEA (Dahlgren, VA)                                    7                 0           0           5                   0 of 7
NAVSEA (Indian Head, MD)                                 8                 0           0           3                   0 of 8
NAVSEA (Newport, RI)                                    21                 9           6           19                 6 of 21
NAVSEA (Panama City, FL)                                20                 0           1           5                  0 of 20
NAVSEA (Philadelphia, PA)                                5                 3           3           5                   3 of 5
NAVSUP (Frederick, MD)                                   1                 0           1           1                   0 of 1
NAVSUP FISC* (Philadelphia, PA)                          5                 0           0           0                   0 of 5
NAVSUP FISC (San Diego, CA)                              2                 0           0           2                   0 of 2
NAVSUP FISC (Seal Beach, CA)                             3                 0           1           3                   0 of 3
SPAWAR Headquarters (San Diego, CA)                     12                 3           0           12                 0 of 12
SPAWAR Systems Center (San Diego, CA)                    3                 1           1           1                   0 of 3
                           Total                          133              24         19           98                15 of 133
*Fleet Industrial Supply Center
1
 Was the task order written to be performance based?
2
 Was a quality assurance surveillance plan developed for the task order?
3
  Did the contracting officer designate a COR for the task order?




                                                                                33
            Table C-4. Task Orders That Followed Information Assurance Requirements
                                            Task Orders      Information       All Information Assurance
                  Site Visited
                                             Reviewed     Assurance Required    Requirements Followed
 Marine Corps (Quantico, VA)                    1                 0                      N/A

 NAVAIR Headquarters (Patuxent River, MD)       17                3                     3 of 3

 NAVFAC Headquarters (Washington, DC)           2                 1                     1 of 1
 NAVSEA Headquarters (Washington, DC)           8                 3                     3 of 3

 NAVSEA (West Bethesda, MD)                     12                0                      N/A

 NAVSEA (Crane, IN)                             6                 2                     0 of 2
 NAVSEA (Dahlgren, VA)                          7                 4                     4 of 4

 NAVSEA (Indian Head, MD)                       8                 3                     0 of 3

 NAVSEA (Newport, RI)                           21                3                     2 of 3

 NAVSEA (Panama City, FL)                       20                2                     2 of 2

 NAVSEA (Philadelphia, PA)                      5                 0                      N/A

 NAVSUP (Frederick, MD)                         1                 0                      N/A
 NAVSUP FISC* (Philadelphia, PA)                5                 1                     0 of 1

 NAVSUP FISC (San Diego, CA)                    2                 0                      N/A

 NAVSUP FISC (Seal Beach, CA)                   3                 0                      N/A
 SPAWAR Headquarters (San Diego, CA)            12                2                     2 of 2

 SPAWAR Systems Center (San Diego, CA)          3                 1                     1 of 1

                          Total                133               25                    18 of 25
*Fleet Industrial Supply Center




                                                    34
              Table C-5. Task Orders That Properly Established Task Order Fees
                                                      Task Orders          Fee-Bearing           All Fees Properly
                  Site Visited
                                                       Reviewed            Task Orders             Established†
Marine Corps (Quantico, VA)                                 1                    1                     1 of 1
NAVAIR Headquarters (Patuxent River, MD)                    17                  14                    14 of 14
NAVFAC Headquarters (Washington, DC)                        2                    0                      N/A
NAVSEA Headquarters (Washington, DC)                        8                    8                     7 of 8
NAVSEA (West Bethesda, MD)                                  12                  12                    12 of 12
NAVSEA (Crane, IN)                                          6                    6                     6 of 6
NAVSEA (Dahlgren, VA)                                       7                    7                     6 of 7
NAVSEA (Indian Head, MD)                                    8                    7                     6 of 7
NAVSEA (Newport, RI)                                        21                  21                    20 of 21
NAVSEA (Panama City, FL)                                    20                  20                    20 of 20

NAVSEA (Philadelphia, PA)                                   5                    4                     4 of 4
NAVSUP (Frederick, MD)                                      1                    0                      N/A
NAVSUP FISC* (Philadelphia, PA)                             5                    1                     1 of 1
NAVSUP FISC (San Diego, CA)                                 2                    2                     2 of 2
NAVSUP FISC (Seal Beach, CA)                                3                    3                     3 of 3
SPAWAR Headquarters (San Diego, CA)                         12                  11                    10 of 11
SPAWAR Systems Center (San Diego, CA)                       3                    3                     3 of 3

                           Total                            133                  120                  115 of 120
*Fleet Industrial Supply Center
†
 Did the contracting officer properly establish fees for cost-type task orders, including cost-plus-fixed-fee and
cost-plus-award-fee task orders?




                                                          35
                            Table C-6. Task Orders That Followed Task Order Administration Requirements
                                                                                                            Not                                  All Task Order
                                                   Task Orders         Within        Requirements                          Subcontractors
                 Site Visited                                                                           Inherently                               Requirements
                                                    Reviewed           Scope1         Identified2                           Authorized4
                                                                                                       Governmental3                                Followed
Marine Corps (Quantico, VA)                              1                1                1                 1                    1                   1 of 1
NAVAIR Headquarters (Patuxent River, MD)                 17               17               17               17                   16                  17 of 17
NAVFAC Headquarters (Washington, DC)                     2                2                2                 2                   N/A                  2 of 2
NAVSEA Headquarters (Washington, DC)                     8                8                8                 8                    7                   8 of 8
NAVSEA (West Bethesda, MD)                               12               12               12               12                    7                  12 of 12
NAVSEA (Crane, IN)                                       6                6                6                   6                   6                  6 of 6
NAVSEA (Dahlgren, VA)                                    7                7                7                   7                   7                  7 of 7
NAVSEA (Indian Head, MD)                                 8                8                8                   8                   2                  8 of 8
NAVSEA (Newport, RI)                                     21               21               21                 21                  14                 21 of 21
NAVSEA (Panama City, FL)                                 20               20               20                 20                 11                  20 of 20
NAVSEA (Philadelphia, PA)                                5                5                5                  5                   3                   5 of 5
NAVSUP (Frederick, MD)                                   1                1                1                  1                  N/A                  1 of 1
NAVSUP FISC* (Philadelphia, PA)                          5                5                5                  5                  N/A                  5 of 5
NAVSUP FISC (San Diego, CA)                              2                2                2                  2                   1                   2 of 2
NAVSUP FISC (Seal Beach, CA)                             3                3                3                  3                  N/A                  3 of 3
SPAWAR Headquarters (San Diego, CA)                      12               12               12                 12                  11                 12 of 12
SPAWAR Systems Center (San Diego, CA)                    3                3                3                   3                   1                  3 of 3
                                                                                                                                       5
                           Total                           133            133              133               133                   87               133 of 133
*Fleet Industrial Supply Center
1
 Were the task orders within the scope of the basic contract?
2
 Were the requirements adequately identified in the task order?
3
  Did the contracting officer ensure that inherently governmental functions were performed only by Government employees?
4
 Were all subcontractors authorized to perform work on SeaPort-e contracts?
5
  Table C-6 indicates that, of the 133 task orders we reviewed, 87 used authorized subcontractors. The prime contractors for the remaining 46 task orders did not
employ subcontractors.




                                                                                36
Management Comments on the Appendix and Our
Response
Naval Sea Systems Command Comments
The NAVSEA Director of Contracts stated that the ordering activities with audited task
orders reviewed the results of our review to verify the accuracy of the data and found
discrepancies. The Director offered to provide the list of discrepancies to the auditors.

Our Response
The Director did not elaborate on the discrepancies he referred to in his comments. In
February 2009 we asked the SeaPort-e program manager to provide us his data; we still
have not received it.




                                            37
Appendix D. Estimates Based on the
Statistical Sample
The DoD Office of Inspector General Quantitative Methods and Analysis Division
developed the statistical sample of task orders to be audited. We provided the
Quantitative Methods and Analysis Division a universe of 1,285 task orders, which was
the number of SeaPort-e task orders awarded as of December 18, 2007. We limited our
review to six of the seven geographic areas in which the program operates to
accommodate audit resource restrictions yet still provide a statistically relevant sample.
The result of this limitation was a universe of 1,106 task orders, and the statistical sample
of 133 task orders was randomly selected from this universe.

We requested two statistical estimates for the universe of 1,106 task orders. The two
estimates correspond to the focus areas in which we identified significant errors,*
competition and quality assurance. We did not request estimates for the remaining three
focus areas, information assurance, task order requirements, and task order fees, because
the number of errors was minimal. The estimates are based on a collective 95-percent
confidence level, which means there is a 5-percent risk that the estimated values of the
lower bound and upper bound do not encompass the true population.

As shown in Table D-1, the Quantitative Methods and Analysis Division estimates that
between 21.7 percent and 37 percent of the 1,106 task orders had competition errors. The
corresponding number of task orders ranges from 240 to 409, with a point estimate
of 324. The point estimate provides a single numerical value for the estimate. The table
for quality assurance errors can be interpreted in the same way.


             Table D-1. Estimates of Task Orders With Competition Errors
         Quantity         Lower Bound         Point Estimate       Upper Bound
            Rate                      0.217                      0.293                0.370
          Number                       240                        324                 409

           Table D-2. Estimates of Task Orders With Quality Assurance Errors
         Quantity          Lower Bound         Point Estimate       Upper Bound
            Rate                      0.833                      0.887                0.942
          Number                       921                        981                 1,041




*
    An “error” is defined as not meeting the applicable Federal or DoD requirement.


                                                      38
Under Secretary of Defense (Acquisition, Technology, and
Logistics) Comments




                   Click to add JPEG file




                                  39
Department of the Navy Comments




                  Click to add JPEG file




                                 40
Click to add JPEG file




               41
ck to add JP




           42
Click to add JPEG file




               43
Click to add JPEG file




               44
                           Final Report
                            Reference




                         Revised and
                         Redirected




Click to add JPEG file




               45
                           Final Report
                            Reference




                         Revised and
                         Redirected




Click to add JPEG file




               46
                           Final Report
                            Reference




                         Revised and
                         Redirected as
                         Recommendation
                         B.1.




Click to add JPEG file   Revised and
                         Redirected as
                         Recommendation
                         B.2.




               47
                           Final Report
                            Reference




                         Revised and
                         Redirected as
                         Recommendation
                         B.1.




Click to add JPEG file




                         Revised and
                         Redirected as
                         Recommendation
                         B.1.




               48
                           Final Report
                            Reference




                         Revised and
                         Redirected as
                         Recommendation
                         B.3.




Click to add JPEG file




               49
Click to add JPEG file




               50
